XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1515 CLAY STREET, 20TH FLOOR
P.O. BOX 70550
OAKLAND, CA 94612-0550

Public: (510) 879-1300
Telephone: (510) 879-0756
Facsimile: (510) 622-2270
E-Mail: Joshua.Klein@doj.ca.gov

February 9, 2021
By Electronic Filing
Hon. Scott S. Harris
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Joseph Biden, et al. v. Sierra Club, et al., No. 20-685
Request for extension of time

Dear Mr. Harris:
My office represents respondent the State of California in this case. The petition for
certiorari was filed on November 17, 2020, under the case name Donald Trump, et al. v. Sierra
Club, et al. Responses to the petition are currently due on February 18, 2021. Pursuant to Rule
30.4, we respectfully request that the time in which to respond to the petition be extended by 90
days, to May 19, 2021. Counsel for petitioners and for the other respondents have authorized us
to state that they consent to the request.
The petition in this case requested either plenary review or, in the alternative, that the
petition be held pending the Court’s disposition of Trump v. Sierra Club, No. 20-138 (certiorari
granted Oct. 19, 2020). The petition noted that each case involves questions about the legality of
the federal government’s transfers of funds appropriated in the 2019 Department of Defense
Appropriations Act to other accounts that would fund border wall construction along the U.S.Mexico border. Pet. 3; see also id. at 33 (stating that the two cases also involve “overlapping
issues presented . . . concerning whether the plaintiffs have a cognizable cause of action to
challenge military spending”).
On February 1, 2021, the petitioners filed a motion in No. 20-138 to hold further briefing
in that case in abeyance and to remove that case from the February 2021 argument calendar. The
motion stated that “[t]he President has directed the Executive Branch to undertake an assessment
of ‘the legality of the funding and contracting methods used to construct the wall,’ . . . and also
to develop a plan within 60 days for ‘the redirection of funds concerning the southern border
wall, as appropriate and consistent with applicable law.’” Id. at 5. The motion stated that “[i]t
would therefore be appropriate for the Court to hold further proceedings in this case in abeyance
to allow for the completion of the process that the President has directed,” and promised that if

February 9, 2021
Page 2
abeyance were granted, petitioners would “advise the Court of material developments that would
support further action by the Court.” Id. at 5-6. On February 3, the Court granted the motion
and removed No. 20-138 from the February argument calendar.
In light of the presidential actions mentioned above and this Court’s order granting an
abeyance of No. 20-138, respondents respectfully request that the due date for responses to the
petition in No. 20-685 be extended by 90 days, to May 19, 2021. This Court has granted two
previous requests for extensions of time for the response.
Sincerely,
s/ Joshua A. Klein
JOSHUA A. KLEIN
Deputy Solicitor General
For

cc:

XAVIER BECERRA
Attorney General

Elizabeth B. Prelogar, Acting Solicitor General (counsel for petitioners)
Dror Ladin (counsel for respondents Sierra Club and So. Border Communities Coalition)
Eric R. Olson (counsel for respondent Colorado)
Robert Tadao Nakatsuji (counsel for respondent Hawaii)
Jeffrey Paul Dunlap (counsel for respondent Maryland)
Tania Maestas (counsel for respondent New Mexico)
Steven C. Wu (counsel for respondent New York)
Jona J. Maukonen (counsel for respondent Oregon)
Michelle Shane Kallen (counsel for respondent Virginia)
Gabe Johnson-Garp (counsel for respondent Wisconsin)

